Federal Deposit Insurance Corporation                                              Congressional Relations and Evaluations
Washington, D.C. 20434                                                                         Office of Inspector General




    DATE:                               February 24, 2000

    MEMORANDUM TO:                      Stephen M. Cross
                                        Director, Division of Compliance and Consumer Affairs

                                        Fred Selby
                                        Director, Division of Finance


    FROM:                               Stephen M. Beard
                                        Director, Office of Congressional Relations and Evaluations

    SUBJECT:                            The Division of Compliance and Consumer Affairs’ Reporting of
                                        Examinations and Activities in FDIC Quarterly Performance Reports
                                        (EVAL-00-002)

    The Office of Congressional Relations and Evaluations (OCRE) completed a review of the
    Division of Compliance and Consumer Affairs (DCA) system and underlying data supporting
    Government Performance and Results Act of 1993 (Results Act or GPRA) performance reporting of
    compliance and Community Reinvestment Act of 1977 (CRA) examinations, and community affairs
    and outreach activities. This evaluation was the second in a series of reviews planned by OCRE to
    address the Office of Inspector General review requirements, related to verifying and validating
    selected data sources and information collection and accounting systems that support agency strategic
    plans, performance plans, and performance reports, in the pending amendments to the Results Act.
    Our evaluation focused on three of DCA's performance goals for 1998, namely:

    (1) Initiate a percentage of 1,610 compliance and CRA examinations according to an agreed-upon
        schedule.
    (2) Conduct 94 banker and outreach and education activities in accordance with workload
        assumptions.
    (3) Conduct presentations at or facilitate 44 meetings of banker and community/industry groups.

    The objective of our review was to determine the adequacy and reliability of the information system
    and data supporting DCA’s performance reporting of compliance and CRA examinations, and
    community affairs and outreach activities.


    SUMMARY OF REVIEW

    DCA established 1998 goals, targets, and performance indicators for compliance and CRA
    examinations as well as community affairs and outreach activities. DCA also included information in
    FDIC’s 1998 quarterly performance reports to illustrate its progress in meeting these goals and
    objectives.
DCA identified the system and information sources used to validate and verify performance data, as
required by the Results Act. For the compliance and CRA examinations goal, DCA used the “Bank
Start Date” in the Compliance Statistical System (CSS) to determine whether targeted performance
levels were achieved during each of the quarters in 1998. CSS is the primary system of record for
capturing and reporting data on DCA’s examination activities.

Our work and conclusions were limited to the general and application controls relevant to the “Bank
Start Date” data element in CSS. In addition, we reviewed a prior FDIC Independent Security Review
Evaluation Report for the Compliance Statistical System (CSS) that identified a number of control
weaknesses related to CSS and we did not evaluate the resulting corrective actions. Accordingly, we
could not provide complete assurance as to the overall reliability of CSS.
With regard to the "Bank Start Date" data element, nothing came to our attention during our testing to
suggest that application controls over this data element were not in place and working. However, CSS
users were able to change the “Bank Start Date” data element until 90 days following completion of
the examination. In addition, we were precluded from determining whether the integrity of the date
was retained throughout CSS processing because there were no source documents supporting that
date at the time it was originally input into CSS. The impact of these findings on Results Act reporting
was mitigated by reasonableness tests and edit checks that DCA established. Thus, we could provide
assurance that the “Bank Start Date” data element was a reliable source for reporting examination
activities in the quarterly performance reports. The “Bank Start Date” is used for other purposes by
DCA where the precision of the date is necessary and important. Accordingly, we recommended that
DCA identify an appropriate source document to support the “Bank Start Date” and strengthen
application controls over that data element in the new system, System of Uniform Reporting of
Compliance and CRA Examinations (SOURCE), that will replace CSS.

We determined that the total number of examination starts reported for 1998 was four less than the
number shown in a CSS printout used as supporting documentation—a difference of less than
1 percent. Specifically, DCA provided us a CSS listing of examination starts for 1998 dated
May 4, 1999 that showed 1,993 examination starts, compared to 1,989 that were reported by DCA.
DCA officials attributed the difference in numbers to the inability of CSS to provide a historical record
of data updates, which prevents the system from always portraying the same data as of a specific date.
Apparently, bank start dates included in the May 1999 listing were added to CSS after information for
the last 1998 quarterly performance report was submitted. With respect to the accuracy of CSS
examination start information, 86 of the 90 compliance and CRA examination start dates in the sample
of examinations that we reviewed were adequately supported.

We could not be certain that the numbers of community affairs and outreach activities reported in
FDIC’s 1998 quarterly performance reports were accurate. To assess progress toward achieving the
community affairs and outreach goals, DCA relied on information provided by DCA regional
community affairs officers in the Quarterly Activity Reports. However, DCA headquarters’ supporting
documentation for the quarterly performance reports did not specifically identify which events in the
Quarterly Activity Reports were included in the total numbers of community affairs and outreach
activities reported in the quarterly performance reports.

With respect to the accuracy and reliability of the Quarterly Activity Reports, we found that most of
the 113 banker outreach and education activities and 155 banker meetings reported in 1998 were

                                                    2
supported by documentation provided to us by the regional community affairs officers. Thus, we could
provide assurance that the Quarterly Activity Reports for 1998 were reliable for GPRA reporting
purposes. Although the events themselves were generally supported, we found that the numbers of
participants were not sufficiently supported for 47 percent of the 113 outreach activities and 36 percent
of the 155 banker meetings. We also found that the results of events identified in the Quarterly
Activity Reports were not adequately supported, in the documentation we were provided, for 26
percent of the 113 outreach activities and 155 banker meetings. Further, we could not find support in
the documentation provided to us by the regional community affairs officers for some of the
community affairs and outreach information highlighted in FDIC’s quarterly performance reports.

DCA changed the focus of the community affairs and outreach goal for 1999 and 2000 to be more
outcome-oriented, and the goal no longer relates to a specific number of events. However, DCA
factored outreach events and numbers of participants in measuring performance for its 1999 outcome-
oriented consumer rights goal. Accordingly, we recommended that DCA take actions that would
ensure community affairs and outreach activities, participants, and results are more sufficiently
documented.

We provided a draft of this report to DCA and the Division of Finance (DOF) for comment. DOF
provided comments through an electronic mail message, and we incorporated its comments in this final
report. We received DCA’s written response on February 3, 2000, to our draft report. The Director,
DCA, provided the response and agreed with recommendations 2, 3, and 4 of the draft report. For
those three recommendations, the Director’s response, together with actions taken and planned and
information we obtained after receiving the response, provided the requisite elements of a management
decision. The Director disagreed with recommendation 1, but provided sufficient information on
DCA’s position to warrant a management decision. DCA’s written response is included in its entirety
as Appendix I of this report. Appendix II presents our assessment of DCA’s responses to the
recommendations and shows that we have a management decision for each of the four
recommendations.


SCOPE OF REVIEW

To accomplish our objective, we:

•   Reviewed FDIC’s Strategic Plan, 1998 and 1999 annual performance plans and 1998 quarterly
    performance reports. We also reviewed second and third quarter 1999 quarterly performance
    reports to determine whether the numbers of events and participants were considered in reporting
    progress for DCA’s revised goals for community affairs and outreach.
•   Reviewed DCA's 1998 Annual Performance Plan.
•   Interviewed DCA officials in headquarters, New York Regional Office, Kansas City Regional
    Office, Baltimore Field Office, Manhattan Field Office, Minneapolis Field Office, and Overland
    Park Field Office about compliance and CRA examinations and community affairs and outreach
    activities.
•   Identified systems used by DCA for tracking and reporting compliance and CRA examinations, and
    community affairs and outreach activities; assessed the reliability of those systems relevant to the
    elements used for tracking and reporting performance toward the three goals reviewed; and tested
                                                   3
    selected system controls.
•   Reviewed DCA’s processes for reporting performance results for the three goals selected for
    review.
•   Reviewed three DCA internal control review reports.
•   Reviewed the Division of Information Resources Management (DIRM) Independent Security
    Evaluation Report for the Compliance Statistical System (CSS).
•   Reconciled compliance and CRA examination activity reported in quarterly performance reports to
    information contained within the system of record.
•   Confirmed performance reports, systems information, and regional reporting data with
    headquarters, regional, and field office staff.
•   Reviewed examination working papers and files for 90 of the 150 examinations started by the
    Baltimore, Manhattan, Minneapolis, and Overland Park Field Offices in 1998. Our sample
    consisted of:
    (1) Baltimore Field Office: reviewed 19 of 19 examinations started in 1998.
    (2) Manhattan Field Office: reviewed 24 of 24 examinations started in 1998.
    (3) Minneapolis Field Office: judgmentally selected for review 23 of 33 exams started in 1998.
    (4) Overland Park Field Office: judgmentally selected for review 24 of 74 exams started in 1998.
•   Reviewed Community Affairs 1998 Quarterly Activity Reports for all eight regional offices:
    Atlanta, Boston, Chicago, Dallas, Kansas City, Memphis, New York, and San Francisco.
•   Reviewed documentation provided by the regional offices to support 1998 community affairs and
    outreach activities.
•   Reconciled community affairs and outreach activities reported in quarterly activity reports to
    information contained within the Quarterly Activity Reports.

We conducted our review from May 1999 through December 1999 in accordance with the President’s
Council on Integrity and Efficiency’s Quality Standards for Inspections.


BACKGROUND

The Results Act is the primary legislative framework through which Federal agencies are required to
set strategic goals, measure performance, and report on the degree to which goals were met. The
Results Act seeks to improve the efficiency, effectiveness, and public accountability of Federal agencies
as well as improve congressional decision-making. GPRA requires Federal agencies to:

•   Prepare strategic plans that cover a period of at least 5 years and that include a mission statement,
    general goals and objectives, and describe how the agency intends to achieve those goals through
    its activities and through its human, capital, information, and other resources.
•   Submit to the Office of Management and Budget (OMB), an annual performance plan to link the
    strategic plan goals to what managers and employees do day-to-day, and

•   Submit to the President and appropriate congressional committees an annual performance report
    for the previous fiscal year.

In November 1997, legislation was introduced in Congress to amend certain provisions of the Results
Act. The legislation proposed requiring agency strategic plans to include a separate assessment by the
                                                    4
inspectors general and agency management of the adequacy and reliability of the information and
accounting systems supporting the agencies' strategic plans and performance plans and reports. The
House of Representatives passed the bill in March 1998 requiring the inspector general of each agency
to develop and implement a plan to review their agency's implementation of the Results Act. On
October 7, 1998, the House instructed agency inspectors general to implement
the review plans envisioned in the bill irrespective of whether the bill becomes a law. Among other
things, this bill requires the:

       "Verification and validation of selected data sources and information collection and
       accounting systems that support agency performance plans and performance reports
       and agency strategic plans…"

FDIC developed a strategic plan for the period 1998 through 2003, and performance plans for 1998
and 1999. The FDIC Strategic Plan contains goals and objectives that have a 6-year strategic focus. It
is implemented through the Annual Performance Plan that is augmented by individual FDIC division
and office performance plans.

Under the performance reporting process, each FDIC division is responsible for gathering and
reporting on their respective sections of the performance plan. Each division submits performance
information to DOF's Business Planning Section. DOF reviews the information for reasonableness and
consistency, combines performance report submissions from each division into a single quarterly
performance report, and presents the report to FDIC's Operating Committee.


RESULTS OF REVIEW

Reliability of Information System for Tracking and Reporting Compliance and CRA
Examinations

DCA had identified a system—CSS—used to validate and verify performance data, as required by the
Results Act. We reviewed general and application controls relevant to the "Bank Start Date" data
element in CSS for compliance and CRA examinations performance reporting. The Division of
Information Resources Management (DIRM) issued a report in August 1998 that identified a number
of control weaknesses related to CSS, and we did not evaluate the resulting corrective actions.
Accordingly, we could not provide complete assurance as to the overall reliability of CSS.
With regard to the "Bank Start Date" data element, nothing came to our attention during our testing to
suggest that application controls over this data element were not in place and working. However,
anyone having access to CSS could change the "Bank Start Date" in the system until 90 days after
examination completion. In addition, we were precluded from determining whether the integrity of the
“Bank Start Date” was retained throughout CSS data processing because there were no source
documents supporting that date at the time it was originally input into CSS. The impact of these
findings on Results Act reporting was mitigated by reasonableness tests and edit checks that DCA
established. Thus, we could provide assurance that the “Bank Start Date” in CSS was reliable for
purposes of performance reporting. The “Bank Start Date” is used for other purposes by DCA where
the precision of the date is necessary and important. For that reason, we recommended
that DCA identify an appropriate source document to support the “Bank Start Date” and strengthen

                                                  5
application controls over that data element.

The Results Act requires each agency to prepare an annual performance plan covering each program
activity set forth in the agency budget. Among other things, performance plans should describe the
means to be used to verify and validate measured values of actual performance. On June 23, 1997,
OMB issued Circular No. A-11, Part 2, Preparation and Submission of Strategic Plans and Annual
Performance Plan. Section 220.13, Verification and Validation, states:

        The annual performance plan should include a description of how an agency intends to
        verify and validate the measured values of actual performance. The means used should
        be sufficiently credible and specific to support the general accuracy and reliability of the
        performance information that is recorded, collected, and reported. Agencies have
        discretion in determining the method of verification and validation to be used.
        Although GPRA does not prescribe use of any particular method, technique, or
        organizational entity, agencies should continue relying on established procedures, such
        as an audit of financial performance, for certain goals and indicators."

One of FDIC’s 1998 GPRA Strategic Goals was for DCA to administer the Corporation’s examination
and enforcement programs for evaluating compliance by FDIC-supervised institutions with consumer
protection and fair lending laws, including the CRA. The 1998 annual performance
goal and target for DCA was to initiate a percentage of 1,610 compliance and CRA examinations
according to an agreed-upon schedule.

According to FDIC’s 1998 Annual Performance Plan, CSS is the primary system of record for
capturing and reporting data on DCA's examination activities. CSS collects, stores, and reports on
bank examination compliance ratings and findings, and on regional and headquarters office review
processes. CSS also records and reports on schedules and phases of bank compliance examinations.
DCA used the "Bank Start Date" data element of CSS to report the number of compliance and CRA
examinations initiated in each quarter of 1998. To assess the reliability of CSS, we obtained an
understanding of system controls, their purposes, and whether they were operating properly. System
controls consist of general and application controls.


General and Application Controls

General controls include organization and management controls, security controls, and system software
and hardware controls. Application controls are those methods and procedures designed for each
application to ensure the authority of data origination, the accuracy of data input, integrity




                                                     6
of processing, and verification and distribution of output. We reviewed general and application
controls relevant to the “Bank Start Date” data element in CSS.

With respect to adequacy of general controls, FDIC uses the System Development Life Cycle (SLDC)
process to develop new automated information systems and enhance or maintain existing systems.
Formal procedures for requesting, approving, testing, and implementing system changes are contained
in FDIC’s System Development Life Cycle Manual, Version 3.0, dated July 1997. According to the
CSS Program Manager, a modified version of the SDLC requirements has been used for CSS redesign
efforts.

As part of the FDIC Information Technology Security Risk Management Program, DIRM conducted
an Independent Security Review of CSS that addressed both general and application controls. An
Independent Security Review is a comprehensive assessment of a system application’s technical,
administrative, personnel, and physical security features and the FDIC’s compliance with security and
integrity requirements for that application. In August 1998, DIRM issued its Independent Security
Review Evaluation Report for the Compliance Statistical System (CSS) and found that contingency
planning, physical security, and environmental security for the CSS host facility, FDIC’s Virginia
Square Data Center, met Federal and FDIC requirements. However, the report identified findings in
12 areas including: management control measures, SDLC, configuration management, system access
control measures, and data integrity. For example, in the area of SDLC, DIRM concluded that the
security-related documentation required by FDIC’s SDLC methodology was incomplete for the risk
assessment and security requirements for the CSS application, and recommended that the requisite
documentation be prepared. In the area of data integrity, DIRM concluded that there were insufficient
assurances that integrity controls were sufficiently “robust to protect CSS data from inadvertent or
malicious disclosure, alteration, or destruction.” In May 1999, DCA provided a corrective action plan
to DIRM addressing the recommended control measures. We did not assess the adequacy of DCA’s
corrective actions. Thus, we could not provide complete assurance as to the overall reliability of CSS.

According to the CSS Program Manager, access to CSS is limited to compliance examiners,
examination review staff in the regional offices, and review staff in headquarters. In addition to FDIC
bank examiners, certain employees of the Division of Supervision and the Office of Inspector General
have been granted access authority to the system. DCA’s CSS User Guide states that obtaining access
to the system requires contacting the appropriate Region or Division security officer.

CSS data can be entered online to the FDIC mainframe computer located at the Virginia Square Data
Center, or into laptop computers, and then transferred to the mainframe computer through the field or
regional office local area networks. When a laptop computer is used, the data is entered into a
standard FDIC Compliance Data Entry Form (DEF). After initiating the formal bank examination,
compliance examiners record information on the DEF, and following examination completion, forward
the DEF to regional offices for review. The "Bank Start Date" is reflected on the DEF. According to
the CSS Program Manager, the DEF generated at the end of an examination is DCA's means of
ensuring that CSS data are accurate.

DCA's CSS User Guide includes procedures for data collection, input, and error handling. Instructions
for preparing the DEF are outlined in Appendix C1, "Compliance Statistical System Program User
Guide," of the FDIC Compliance Examination Manual.

                                                   7
Data failing to meet CSS input requirements are identified online through various system edit checks.
For example, CSS will not allow a future date to be entered as the "Bank Start Date." DCA's regional
offices monitor the "Bank Start Dates" and validate the dates on a weekly basis before DCA
headquarters generates its monthly activity reports. There was no requirement for supervisory
approval of information before input to CSS. The approval occurred during supervisory review of
compliance and CRA examination reports.

As mentioned previously, DCA used the "Bank Start Date" data element of CSS to report the number
of compliance and CRA examinations started in each quarter of 1998. The "Bank Start Date" can be
changed by anyone having access to CSS until 90 days after the examination report is issued to the
financial institution. To test the reliability of this control, we asked the administrative personnel
responsible for entering the data into CSS at two field offices and one regional office to try changing
the "Bank Start Dates" for three 1998 examinations. The administrative personnel received error
messages indicating that the "Bank Start Date" was a protected field and could not be changed. The
examinations included in this test had been closed for more than 90 days.

There was no source record for us to use to validate the "Bank Start Date" at the time of its original
input into CSS. As a result, we could not compare actual source data to input and output reports to
determine whether the integrity of the "Bank Start Date" was retained throughout CSS data
processing. Because the "Bank Start Date" can be updated, if needed, up to 90 days following the
completion of a compliance examination, we asked DCA officials what assurances they had that the
examination starts reported for 1998 were accurate. To verify and validate performance data, DCA
headquarters officials told us that they analyzed CSS data collected, specifically the "Bank Start Date,"
to determine if targeted performance levels were achieved during the reporting period. During the
analysis, DCA staff performed checks of reasonableness on the examination start dates in CSS. System
edit checks and data field requirements also played a part in maintaining the integrity of CSS data.
These features were designed by DCA and DIRM to reduce the risk of CSS capturing inaccurate or
illogical data.

DCA officials told us that, while they did not audit CSS data, they continuously monitored the data for
accuracy, including the “Bank Start Date,” in preparation for weekly, monthly, and quarterly reports on
examination starts submitted to senior management. DCA's internal control reviews of the regional
offices also served as a means of monitoring CSS data. CSS data verifications were performed on a
limited sample of examinations during the internal control reviews. We reviewed three internal control
review reports issued in 1998. One report identified two examples of CSS data entry forms reflecting
examination start dates that were different than the dates shown in a section of the Compliance Report
of Examination. One report identified three instances where the reports of examination had dates of
examination that did not coincide with the DEF.

DCA officials told us they believed the edit checks and reasonableness tests they had implemented were
sufficient to ensure the integrity of the “Bank Start Date” was maintained for purposes of reporting
quarterly performance of examination goals. Nothing came to our attention during our review to
suggest that these controls were not working as intended. As discussed in the next section, we
determined that the total number of examination starts reported for 1998 was four less than the number
shown in a CSS printout used as supporting documentation—a difference of less than 1 percent.

                                                   8
Further, we found documentation in working papers and files to support 86 of the 90 examination start
dates (96 percent) that we reviewed. Thus, based on DCA’s controls and our
test results, we could provide assurance that the “Bank Start Date” data element was a reliable source
for reporting examination activities in the quarterly performance reports.

However, the “Bank Start Date” is used for other purposes by DCA where the precision of the date is
necessary and important. Specifically,

•   The Bank Start Date” constitutes the “official” examination date and is the report date for the
    Compliance Reports of Examination and the CRA Performance Evaluation Reports that are
    transmitted to the financial institutions under review.

•   The “Bank Start Date” is used to calculate the next examination date for the financial institution.

Given the significance of the “Bank Start Date,” we recommended that DCA identify an appropriate
source document to support the “Bank Start Date” and strengthen application controls over that data
element. Because DCA was developing a new system, SOURCE, to replace CSS, we did not
recommend any changes to CSS. DCA should ensure that its new system, SOURCE, includes data
integrity control measures to protect the official compliance and CRA examination date from
unnecessary or unauthorized alteration.


Accuracy of Reported Examination Activity and Review of Examination Working Papers and
Files

We determined that the total number of examination starts reported for 1998 was four less than the
number shown in a CSS printout used as supporting documentation—a difference of less than
1 percent. We also found that, with a few exceptions, the compliance and CRA examination start dates
in the examinations we reviewed were accurate and adequately supported.

In FDIC's Fourth Quarter 1998 Performance Report, DCA reported that 1,989 compliance and CRA
examinations were started in 1998. We requested a listing of the examination starts for 1998, and
DCA officials provided us with a CSS printout, dated May 4, 1999, that showed a total of 1,993
examinations started in 1998. We tried to reconcile the numbers, but DCA officials told us that 1,989
was the correct number of examinations started in 1998. The officials explained that CSS does not
have the capability to “freeze” or archive data to provide a historical record of the updates. When CSS
data is updated, the transaction cannot be reconstructed from inception to completion. Thus, CSS
reports showing data as of a specific date may not always produce the same results. Therefore, any
updates to 1998 examination starts entered into CSS after December 31, 1998, would have been
included in the May 4, 1999 printout that we received. DCA officials attributed the difference of four
examinations (1,993 examination starts reflected in the May 4, 1999 printout compared to the 1,989
examination starts reported in FDIC’s Fourth Quarter 1998 Performance Report) to this CSS
limitation. DCA recognized that CSS's inability to maintain historical records is a limitation of the
system and requested that the new system, SOURCE, have historical data capabilities.

For the compliance and CRA examinations goal, DCA used the "Bank Start Date" data element in

                                                    9
CSS to determine if targeted performance levels were achieved during each of the four quarters in
1998. To test the "Bank Start Date" in CSS, we visited four field offices: Baltimore, Manhattan,
Minneapolis, and Overland Park. DCA had no source record to validate the “Bank Start Date” at the
time of its original input into CSS. As a result, we relied on a variety of documents we located in the
examination working papers and files for our sample of 90 of the 150 examinations started by the four
field offices. The documents that we reviewed included:

•   Entrance Conference agenda,
•   Entrance Conference write-up, when available,
•   Timesheets documented in the working papers, when available,
•   Compliance Report of Examination,
•   CRA Performance Evaluation Report, and
•   CSS data input sheets, when available.

We especially relied on the Compliance Report of Examination and the CRA Performance Evaluation
Report because the FDIC Compliance Examination Manual contained a provision that these reports
include the date the examination staff entered the institution for the review. This date is the “Bank
Start Date” in CSS.

We found documentation in the working papers and files to support 86 of 90 examination start dates
that we reviewed. However, we noted the following exceptions:

•   Two instances in which the date on the Compliance Report of Examination differed from the CSS
    "Bank Start Date."
•   Two instances in which the date on the Compliance Report of Examination and the CRA
    Performance Evaluation Report differed from the CSS "Bank Start Date."

In our review of the four field offices’ records, we found one examination that was not included in the
CSS printout of all examinations started in 1998. CSS reflected a January 8, 1999 “Bank Start Date.”
However, most of the documentation in the working papers and files, including the Compliance Report
of Examination and the CRA Performance Evaluation Report, indicated a bank start date of December
31, 1998. DCA officials stated that this examination would have been included in 1999 performance
results because of the January 8, 1999 "Bank Start Date."


Reliability of Data Supporting DCA Community Affairs and Outreach Activities

We could not determine whether the numbers of community affairs and outreach activities reported in
FDIC’s 1998 quarterly performance reports were accurate. We reviewed documentation provided to
us by the community affairs officers and found that most of the community affairs and outreach events
reported in the Quarterly Activity Reports in 1998 were adequately supported. Therefore, we could
provide assurance that the Quarterly Activity Reports for 1998 were reliable for GPRA performance
reporting. Although the events themselves were generally supported, we found that the numbers of
participants in these events and the results of the activities were not always supported in the
documentation provided by the community affairs officers. Further, we could not find support for
some of the community affairs and outreach information highlighted in FDIC's Quarterly Performance
                                                  10
Reports.

DCA changed the focus of the community affairs and outreach goals for 1999 and 2000 to reflect
impact rather than number of activities. However, DCA considered the number of events and
participants in reporting its outreach performance results in 1999. Thus, we believed DCA
headquarters and the community affairs officers should ensure that adequate records are maintained to
more sufficiently support community affairs and outreach activities and the numbers of participants
attending the events.

DCA's Community Affairs Program supports FDIC in its supervisory role and its functions related to
community reinvestment and fair lending, and assists consumer and community groups, government
officials, and others in understanding and participating in the fair lending process. The program serves
the FDIC, the lending community, and the public by providing information on, and assistance with,
identifying and meeting community credit needs. Through community outreach efforts and technical
assistance, the FDIC encourages lenders to communicate continually with members of their local
communities' credit needs.

FDIC’s 1998 Annual Performance Plan included two strategic goals for DCA: (1) promote
compliance with the CRA, including community development lending, and other fair lending laws and
regulations; and (2) facilitate banks’ and community-based organizations’ participation in community
reinvestment initiatives, consistent with Fair Lending goals and objectives. The 1998 annual
performance goals and targets were to:

•   Conduct 94 banker outreach and education activities in accordance with workload assumptions;
    and
•   Conduct presentations at or facilitate 44 meetings of banker and community/industry groups.

Annual performance goals for this area primarily related to the number of educational and outreach
efforts pertaining to fair lending and CRA issues. The community affairs officers in the regional offices
reported their 1998 community affairs and outreach activities in Quarterly Activity Reports submitted
to the national community affairs coordinator at DCA headquarters. The Quarterly Activity Reports
consisted of narrative descriptions of each region’s progress in meeting annual goals and detailed
information about the community affairs and outreach activities including the date, location, topic,
numbers and types of participants, names of DCA representatives, and results for each event. The
national community affairs coordinator summarized the data in the Quarterly Activity Reports and
included the significant events in FDIC’s quarterly performance reports. DCA headquarters did not
separately communicate to the community affairs officers what specific events were included or
excluded in the quarterly performance reports in 1998. However, for some of the activities, the
national community affairs coordinator annotated changes and review comments directly on the
Quarterly Activity Reports and returned copies of the reports to the regional directors and the
community affairs officers.
We could not be certain that the numbers of community affairs and outreach activities reported in
FDIC’s 1998 quarterly performance reports were accurate. In FDIC’s Fourth Quarter 1998
Performance Report, DCA reported 104 events for the banker outreach and education activities goal,
and 110 events for the banker and community/industry meetings goal for the entire year. The
community affairs officers reported a total of 113 events and 155 activities for the same goals. We did

                                                   11
not attempt to reconcile the differences because, as previously mentioned, DCA headquarters officials
told us they selected the significant events from the Quarterly Activity Reports for inclusion in FDIC’s
quarterly performance reports for 1998. Further, DCA headquarters’ supporting documentation for
the quarterly performance reports did not specifically identify which regional events reported in the
Quarterly Activity Reports were included in, or excluded from, the total numbers of community affairs
and outreach activities reported in the quarterly performance reports in 1998.

DCA did not have a requirement for community affairs officers to document or maintain records for
each activity. However, DCA officials in headquarters told us that, to verify an outreach activity, they
would review documentation such as: a registration list of attendees, agenda materials, brochures,
folder of notes on the development of the outreach event(s), evaluation forms, and electronic mail
messages regarding the planning and execution of the event(s).

We reviewed community affairs and outreach files during our visits to the New York and Kansas City
Regional Offices. The documentation in the files consisted of items such as:

•   Conference/meeting/workshop announcements
•   Agendas
•   Handouts
•   Invitations for speaking engagements
•   Requests for authorization to attend an outside event
•   Results of consumer credit surveys
•   Attendee sign-in sheets
•   Report of outside event

We requested through DCA headquarters that the remaining six regional offices send us copies of
documentation supporting their community affairs and outreach activities for 1998. We traced the
following items in the Quarterly Activity Reports to the documentation provided to us by the
community affairs officers for each of the eight regions:

•   Date of event
•   Event location and/or topic
•   Number/Type of participants
•   DCA representative attending the event
•   Results of the event

We found that most of the 113 outreach and education activities and 155 banker meetings in the
Quarterly Activity Reports were adequately documented. While the events themselves were generally
supported, we found that the numbers of participants were not sufficiently supported for 47 percent of
the 113 outreach activities and 36 percent of the 155 banker meetings. As an example, one region
reported in its Quarterly Activity Report that 200 participants attended a Lending Conference.
However, we could not find any support for the number of participants in the documentation that we
were provided for this event. We believed maintaining records of attendance and participation for
community affairs and outreach events is important because DCA headquarters reported an aggregate
number of participants attending these activities for each of the 1998 quarterly performance reports.
For example, in FDIC’s Fourth Quarter 1998 Performance Report, DCA reported that it was able to
                                                   12
reach over 900 bankers in six regions by holding 13 banker- related speaking and training engagements
during the fourth quarter of 1998. DCA also reported in the fourth quarter report that it conducted 25
outreach activities that reached approximately 1,200 participants.

We also found that the results of events identified in the Quarterly Activity Reports were not
adequately supported for 26 percent of the 113 outreach activities and 155 banker meetings. For
example, one region reported in its Quarterly Activity Report that a meeting resulted in a loan servicer
agreeing to report on the loans made under the lending program and FDIC signing a partnership
agreement with the local community representatives and lenders. We could not find any support for
these results in the documentation that the region provided to us. Maintaining files to document the
results of community affairs and outreach events is critical because DCA headquarters highlighted the
impact of some of the significant outreach events in FDIC’s quarterly performance reports in 1998.
For example, in FDIC’s Fourth Quarter 1998 Performance Report, DCA reported that a particular
conference provided participants with practical information and tools, and helped to build networks
and partnerships for ongoing community development.

In addition, we could not find support in the documentation provided to us by the regional community
affairs officers for some of the community affairs and outreach information highlighted in FDIC’s
quarterly performance reports in 1998. For example, in FDIC’s First Quarter 1998 Performance
Report, DCA highlighted a conference designed to encourage the development of innovative
community development projects that was attended by approximately 240 participants. We could not
find any support for the number of participants attending or the results of this event in the
documentation provided to us by the community affairs officer for the region in which the event took
place. In another example, in FDIC’s Fourth Quarter 1998 Performance Report, DCA highlighted
three consumer education workshops conducted during the period. We were able to locate supporting
documentation in the information provided to us by the community affairs officers for just one of the
three workshops.

DCA changed the focus of the community affairs and outreach goals for 1999 and 2000 to be more
outcome-oriented, and the goals no longer relate to a specific number of events. According to FDIC’s
Second Quarter 1999 Performance Report, DCA's goal for consumer rights is to develop a
methodology for measuring what changes in community development have resulted from FDIC
outreach efforts. However, in the Second Quarter 1999 Quarterly Performance Report, DCA reported
that they conducted: 27 speaking engagements that were attended by 3,312 participants, 39 training
activities that were attended by 1,788 participants, and 93 conferences/meetings/focus groups that
were attended by 5,086 participants. Therefore, because outreach events are factored into measuring
performance for the outcome-oriented goal, we believe that the community affairs officers should
maintain more sufficient documentation in support of the activities that they report.




                                                   13
CONCLUSIONS AND RECOMMENDATIONS

DCA established 1998 goals, targets, and performance indicators for compliance and CRA
examinations and community affairs and outreach activities. DCA also identified a system and
information sources used to validate and verify performance data, as required by the Results Act.

Our work and conclusions were limited to general and application controls relevant to the CSS “Bank
Start Date” data element used for compliance and CRA examination performance reporting. We could
not provide complete assurance as to the overall reliability of CSS because a prior FDIC review of the
system identified control weaknesses related to CSS and we did not review the resulting corrective
actions.

We found an immaterial difference in the numbers of examination starts reported in 1998 compared to
CSS information. In addition, with just a few exceptions, the compliance and CRA examination start
dates in our sample of examinations were adequately supported. However, we could not determine
whether the integrity of the “Bank Start Date” was retained throughout CSS data processing because
no source document existed to permit validation of the examination start date at the time of original
input into CSS. Further, CSS users were able to change the “Bank Start Date” data element until 90
days after examination completion. DCA established reasonableness tests and edit checks it believed
were sufficient to ensure that data integrity of the “Bank Start Date” was maintained for purposes of
GPRA performance reporting. Nothing came to our attention during our review to suggest that
DCA’s reasonableness and edit check controls were not working as intended. As a result, we could
provide assurance that CSS was reliable for performance reporting purposes. Given the importance of
the “Bank Start Date,” however, we believed DCA should better ensure the accuracy of this date.
Accordingly, we recommended that the Director, DCA:

(1)     Require that the DCA regional directors work with the field office supervisors to determine the
        type of documentation that should be prepared and maintained in the examination working
        papers to support the “Bank Start Date.”

(2)     Consider establishing a “Bank Start Date” data element in the new system, SOURCE, which is
        fully protected from unnecessary or unauthorized revisions.

With respect to the goals for community affairs and outreach activities, we could not be certain that the
numbers of community affairs and outreach events reported in FDIC’s 1998 quarterly performance
reports were accurate. DCA headquarters relied on information provided by regional community
affairs officers in Quarterly Activity Reports for GPRA performance reporting. However, DCA
headquarters’ supporting documentation for the GPRA quarterly performance reports did not
specifically identify which regional events were included in the total number of community affairs and
outreach activities reported in the quarterly performance reports.

With respect to the accuracy and reliability of the Quarterly Activity Reports, we found that most of
the community affairs and outreach activities reported in 1998 were supported by documentation
provided to us by the regional community affairs officers. Thus, we could provide assurance that the
Quarterly Activity Reports for 1998 were reliable for GPRA reporting purposes. Although the events
were generally supported, the numbers of participants in the activities and the results of the events were

                                                   14
not always sufficiently supported in the documentation provided to us. Further, we could not find
support in the documentation provided to us for some of the information highlighted in FDIC’s
quarterly performance reports in 1998.

DCA changed the focus of its community affairs and outreach goal for 1999 and 2000 to be more
outcome-oriented, and the goal no longer relates to a specific number of activities. However, DCA
considered outreach events and numbers of participants in measuring performance for its 1999
consumer rights goal. Thus, we believed that DCA headquarters and the community affairs officers
should ensure that more sufficient documentation is maintained to support community affairs and
outreach activities and the numbers of participants attending the events. Accordingly, we
recommended that the Director, DCA, require that the Associate Director, Washington Consumer/
Community Affairs/Outreach Branch:

(3)    Maintain a record of which regional events reported in the Quarterly Activity Reports are
       included in the FDIC GPRA quarterly performance reports.

(4)    Work with the regional community affairs officers to determine the amount, extent, and type of
       documentation that should be maintained to ensure that community affairs and outreach
       activities and the numbers of participants attending the events are adequately supported.


CORPORATION COMMENTS AND OIG EVALUATION

Through an electronic mail message, DOF requested an editorial change to a draft of this report. We
revised the final report to address DOF’s request. We received DCA’s written response dated
February 3, 2000, to our draft report. The Director, DCA, provided the response and agreed with
recommendations 2, 3, and 4 of the draft report. For those three recommendations, the Director’s
response, together with actions taken and planned and information we obtained after receiving the
response, provided the requisite elements of a management decision. The Director disagreed with
recommendation 1, but provided sufficient information on DCA’s position to warrant a management
decision. The response is presented in Appendix I of this report. Appendix II presents our assessment
of DCA’s responses to the recommendations and shows that we have a management decision for each
of the four recommendations. A summary of DCA’s response and our analysis follows.

Require that the DCA regional directors work with field office supervisors to determine the type
of documentation that should be prepared and maintained in the examination working papers
to support the “Bank Start Date” (Recommendation 1): The Director, DCA, disagreed with this
recommendation. In his response, the Director stated DCA’s belief that the source document for the
“Bank Start Date” should be the Compliance Report of Examination and/or the CRA Performance
Evaluation Report, and added that the date reflected on the cover of these documents is the “official”
date of the examination and is the date recorded in the Compliance Statistical System (CSS) as the
“Bank Start Date.”




                                                 15
Following receipt of the DCA Director’s response, we requested additional information to clarify
DCA’s position on this recommendation. We inquired about the type of discussions that took place
between the regional directors and field office supervisors to reach agreement that the Compliance
Report of Examination and/or the CRA Performance Evaluation Report should serve as support for
the “Bank Start Date.” We received an electronic mail message from DCA stating that DCA’s
regional directors and field office supervisors have always maintained that the Compliance Report of
Examination and/or the CRA Performance Evaluation Report serves as the primary support for the
examination’s “Bank Start Date.” DCA’s message also indicated that, to date, there has not been a
need for additional discussion of this issue.

In our opinion, a source document by definition is information, in manual or electronic form, which is
the basis for original entry of data to a computer application. Because the “Bank Start Date” is entered
into CSS many weeks before the preparation of the examination reports, we theoretically cannot agree
with DCA’s position that the reports of examination should serve as the source document for the
“Bank Start Date.” Nevertheless, we accept DCA’s position that the reports of examination will
continue to serve as the primary support for the “Bank Start Date,” and thus for GPRA reporting of
examinations initiated. We noted in our draft report that we relied on these reports to validate the
“Bank Start Date” for the compliance and CRA examinations in our sample because no source
documents existed to support the dates at the time of original entry into CSS.

As we pointed out in our draft report, the potential for error in CSS for “Bank Start Dates” used for
Results Act reporting was mitigated by reasonableness tests and edit checks that DCA performed on
the CSS data. However, we also noted that there is value to DCA ensuring the accuracy of the “Bank
Start Date” because this date is used for other purposes, such as scheduling future compliance and
CRA examinations.

The Director’s response and additional information provided by DCA adequately discuss the basis for
DCA’s disagreement with this recommendation and therefore constitute a management decision.

Consider establishing a “Bank Start Date” data element in the new system, SOURCE, which is
fully protected from unnecessary or unauthorized revisions (Recommendation 2): The Director,
DCA, agreed with this recommendation and stated that the new system, SOURCE, will protect the
“Bank Start Date” from any unnecessary or unauthorized revisions or changes through system update
controls, such as the requirement that the field staff and bank must both be assigned to the same field
office in order for the field staff to perform any data updates. In his comments, the Director stated that
the examination record will be locked from all updates 90 days after the “mailed to bank date.”
Although it appears that the “Bank Start Date” in SOURCE will still be subject to revisions within the
90-day limitation, DCA stated that the new system will have a full audit trail documenting all changes
to the data file—a control that did not exist in the CSS. DCA estimated that SOURCE would be
implemented by June 30, 2001. DCA’s response adequately addressed the intent of the
recommendation and contained all the requisites of a management decision.




                                                   16
Maintain a record of which regional events reported in the Quarterly Activity Reports are
included in the FDIC GPRA quarterly performance reports (Recommendation 3): The
Director, DCA, agreed with this recommendation and indicated in his response that, starting in the first
quarter of 2000, DCA’s Washington Consumer/Community Affairs/Outreach Branch will annotate on
the Quarterly Activity Reports those regional events which will be included and the
activities which will not be included in the DCA quarterly performance report. DCA’s response
adequately addressed the recommendation and contained all the requisites of a management decision.

Work with the regional community affairs officers to determine the amount, extent, and type of
documentation that should be maintained to ensure the community affairs and outreach
activities and the numbers of participants attending the events are adequately supported
(Recommendation 4): The Director, DCA, agreed with this recommendation and stated that DCA is
in the process of revising the quarterly report form used by Community Affairs staff to document their
activities. The revised form will require a record of the actual, not the estimated, number of attendees
at each outreach event, and the numbers will be confirmed using a roster, a sign-in sheet, or other
documentation. The Director indicated that the revised form should enable the Community Affairs
staff to be more specific in reporting the outcomes of their work. DCA anticipates the revised form
will be used in the second quarter of 2000. The Director’s response adequately addressed the
recommendation and contained all the requisites of a management decision.




                                                   17
Appendix I: Corporation Comments




                                   18
Appendix I: Corporation Comments




                                   19
Appendix I: Corporation Comments




                                   20
Appendix I: Corporation Comments




                                   21
Appendix II: Management Response to Recommendations

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on DCA management’s written response to our draft report.


                                                                                       Expected or      Documentation                  Management
  Rec.                                                                                   Actual        that will Confirm    Monetary    Decision:
  Number    Corrective Action: Taken or Planned / Status                               Completion        Final Action       Benefits    Yes or No
                                                                                          Date

      1     DCA’s regional directors and field office supervisors have always            02/03/00      Compliance             N/A         Yes
            maintained that the Compliance Report of Examination and/or the                            Reports of
            CRA Performance Evaluation Report serves as the primary support                            Examination
            for the examination’s “Bank Start Date.” The date reflected on the                         and/or CRA
            cover of these documents is the “official” date of the examination.                        Performance
                                                                                                       Evaluation Reports




     2      DCA’s new system of record, System of Uniform Reporting of                   06/30/01      SOURCE system          N/A         Yes
            Compliance and CRA Examinations (SOURCE), will protect the                                 documentation and
            “Bank Start Date” from unnecessary and unauthorized revisions.                             user guide
            SOURCE will also have a full audit trail documenting all changes
            to the data file.




     3      DCA Washington Office will make a notation on the Quarterly                First Quarter   Annotated              N/A         Yes
            Activity Reports for regional events included in and excluded from             2000        Quarterly Activity
            DCA’s quarterly performance reports.                                                       Reports




                                                                                  22
                                                                                  Expected or     Documentation                 Management
Rec.                                                                                Actual       that will Confirm   Monetary    Decision:
Number   Corrective Action: Taken or Planned / Status                             Completion       Final Action      Benefits    Yes or No
                                                                                     Date

  4      The revised quarterly report form will clearly state that Community        Second       Revised Quarterly     N/A         Yes
         Affairs staff should include the actual, not the estimated, number of    Quarter 2000   Activity Report
         attendees at each outreach event. These numbers will be confirmed                       form
         using a roster, a sign-in sheet, or other documentation. The form
         will also enable the Community Affairs staff to be more specific in
         reporting the outcomes of their work.




                                                                             23
